                                                        NATIONAL SCIENCE FOUNDATION                 1

                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM
                                                                                                    I1




         We investigated a matter that arose out of a proactive review of expenditures made under US-
         Egypt Awards. It appeared from the review of an NSF award,' that funds were used to,pay for 6
         trips that were outside the scope of the initial award, some of which were also not used in
         accordance with rules associated with participant support costs.

         We contacted the awardee institution2for an explanation, and discussed the justification provided
         by the Principal Investigator (PI)) with the NSF program officer (PO): that the PI had 1
         encountered problems with the Egyptian Collaborator, had so notified the PO, and thus was
         permitted to use funds outside the scope of the initial award. The PO noted that though problems
         were originally identified, the PI had informed him that the problems had been resolved, and that
         the PI'S use of funds for the identified trips were within the initial scope of the award. !I        ~i

         Specifically, the trips were not identified in the PI'S proposal, and the PI did not request prior or
         even subsequent approval to use the NSF award funds at issue for these trips. Upon contacting
         the PI directly to request an additional explanation, he noted that he misunderstood the associated
                                                                                                    /I
         restrictions on his award funds, and did not realize that he needed to request prior written         /I

         approval of the identified trips.

         The university made assurances that the problems identified are not typical, and that it would
         undertake special measures to ensure that the PI does nbt encounter problems in the &re of a '
         similar nature. Moreover, the university reimbursed NSF $15,649.17 for the costs of the 6 trips
         identified, in the amount of $13,727.34 in direct costs, plus the related indirect costs of
         $1,921.83.

                    Accordingly, this case is closed.




         ' Redacted
           Redacted
           Redacted
           Redacted       I.




VSF OIG Form 2 (1 1/02)
